     Management Advisory Report




Single Audit of the State of Utah for
the Fiscal Year Ended June 30, 2012




      A-77-14-00002 | November 2013
Single Audit of the State of Utah for the Fiscal Year Ended
June 30, 2012
A-77-14-00002
November 2013                                                              Office of Audit Report Summary

Objective                                   Findings

To report internal control weaknesses,      The single audit reported:
noncompliance issues, and
unallowable costs identified in the         •   USOR did not accurately prepare the State Agency Report of
single audit to Social Security                 Obligations for SSA Disability Programs (Form SSA-4513)
Administration (SSA) for resolution             report for the quarter ended September 30, 2011 and did not
action.                                         submit it to SSA timely.

Background                                  •   The DDS inaccurately reported the number of hours on the
                                                Time Report of Personnel Services for Disability Determination
The Utah State Auditor conducted the            Services (Form SSA-4514) for the quarter ended September 30,
single audit of the State of Utah. SSA          2011 and did not submit it to SSA timely.
is responsible for resolving single audit
findings related to its Disability          •   The DDS did not have a formal process in place to ensure all
Insurance program. The Utah State               employees who charge time to only the SSA program
Office of Rehabilitation (USOR) is the          completed a Personal Activity Report (PAR).
Utah Disability Determination
Services’ (DDS) parent agency.              Recommendations

                                            We recommend that SSA:

                                            1. Verify that appropriate procedures are in place to ensure the
                                               accuracy and timeliness of Forms SSA-4513 and SSA-4514.

                                            2. Confirm that appropriate procedures are in place to ensure
                                               applicable DDS employees complete PARs.
MEMORANDUM
Date:      November 25, 2013                                                          Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Utah for the Fiscal Year Ended June 30, 2012 (A-77-14-00002)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Utah for the Fiscal Year ended June 30, 2012. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Utah State Auditor performed the audit. The results of the desk review conducted by the
           Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the internal
           control and compliance work performed by the Utah State Auditor and the reviews performed by
           HHS. We conducted our review in accordance with the Council of the Inspectors General on
           Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Utah Disability Determination Services (DDS) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is reimbursed for
           100 percent of allowable costs. The Utah State Office of Rehabilitation (USOR) is the Utah
           DDS’ parent agency.

           The single audit reported:

           •   The USOR did not accurately prepare the State Agency Report of Obligations for SSA
               Disability Programs (Form SSA-4513) report for the quarter ended September 30, 2011 and



           1
            State of Utah, Single Audit Report Fiscal Year Ended June 30, 2012
           http://sao.blob.core.windows.net/saoreports/2012/12-40StateofUtahSingleAudit.pdf (last viewed
           September 25, 2013).
Page 2 - Gary S. Hatcher

       did not submit it to SSA timely. 2 The corrective action plan indicated the data entries are
       being more closely monitored and USOR staff are working with SSA to receive additional
       training.

•      The DDS inaccurately reported the number of hours on the Time Report of Personnel
       Services for Disability Determination Services, (Form SSA-4514) for the quarter ended
       September 30, 2011 and did not submit it to SSA timely. 3 The corrective action plan
       indicated the DDS is developing a review and reconciliation process for payroll data. In
       addition, controls were put in place to ensure all categories of time are included and late
       changes do not lead to errors.

•      The DDS did not have a formal process in place to ensure all employees who charge time to
       only the SSA program completed a Personnel Activity Report (PAR). 4 The corrective action
       plan indicated USOR has made significant changes to the process for distributing, collecting,
       and storing PARs to ensure that proper documentation is maintained.

We recommend that SSA:

1. Verify that appropriate procedures are in place to ensure the accuracy and timeliness of the
   Forms SSA-4513 and SSA-4514.

2. Confirm that appropriate procedures are in place to ensure applicable DDS employees
   complete PARs.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                                   Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding 12-47.
3
    Id. at finding 12-48.
4
    Id. at findings 12-10 and 12-49.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
